Office of Inspector General


March 30, 2011

MEMORANDUM

TO:                  USAID/Yemen Mission Director, Robert Wilson

FROM:                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:             Risk Assessment of USAID/Yemen’s Major Activities (Report No. 6-279-
                     11-001-S)

This memorandum transmits our final report on the subject review. In finalizing the
report, we considered your comments on the draft report and have included your
responses in their entirety at Appendix II.

The report includes three recommendations. On the basis of USAID/Yemen’s planned
actions, management decisions have been reached on all recommendations. Please
provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action.

Thank you for the cooperation and courtesy extended to the audit team during this risk
assessment.




U.S. Agency for International Development
USAID Office Building
1A Nady El-Etisalat Street
Off El-Laselki Street
New Maadi
Cairo, Egypt
www.usaid.gov/oig
Background
             USAID/Yemen’s Country Strategy: Stabilization through Development 2010–
             2012 seeks to address instability and conflict in Yemen. In 2009, an
             independent organization classified Yemen among the top 18 countries in the
             world whose stability situation is categorized as “alert” in the annual Failed
             States Index. 1 In 2010, the same report ranked Yemen among the top 15
             countries in the world whose stability situation is categorized as “in danger.”

             The drivers of instability and conflict in Yemen include (1) a large youth bulge
             and rapidly growing population, (2) unequal development, (3) political
             marginalization and repression of the disaffected, (4) widespread corruption,
             (5) weak state institutions, (6) declining government revenues, (7) growing
             natural resource scarcity, and (8) violent Islamist extremism. The Government
             of the Republic of Yemen has been unable to manage or resolve these multiple
             conflicts within the country. With limited natural resources, increasing reliance
             on agricultural development for economic growth is constrained by Yemen’s
             finite supply of land suitable for growing crops and one of the world’s lowest
             levels of water availability.

             USAID’s overarching strategic goal in Yemen is to increase stability through
             targeted interventions in highly vulnerable areas. Stability in Yemen is
             characterized as reduced support for violent means of resolving conflicts and
             grievances and increased support for the central government to prevent
             fragmentation of the state and continued conflict. Increased instability has
             deterred Yemen’s development prospects while increasing human rights
             abuses, intensifying the competition for resources, and decreasing government
             attention to reform and development.

             Stabilization and conflict mitigation are necessary to create opportunities for job
             creation and to improve education, health, and governance. USAID/Yemen’s
             goal implies a localized stabilization strategy with an immediate focus on short-
             and medium-term results that include goals for longer-term sustainability. Over
             the past 3 years, congressional budget requests for foreign operations in Yemen
             increased by about 62 percent, from approximately $34 million to approximately
             $55 million. 2 Although the mission program funding increased, authorized
             staffing increased by about 13 percent from 16 staff in fiscal year (FY) 2009 to
             18 staff in FY 2011. Figure 1 illustrates a trend comparison of the mission’s
             budget requests and authorized staffing levels from FY 2009 to FY 2011.




             1
               The Failed States Index is developed annually as a collaboration between Foreign
             Policy magazine (documenting global politics, economics, and ideas) and The Fund for
             Peace (an independent, nonpartisan research and educational organization that works
             to prevent war and alleviate the conditions that cause conflict).
             2
               Budget request amounts do not include the Joint State/USAID Foreign Assistance
             Framework Strategic Objective of Peace and Security.
                                                    2
                               Authorized Staffing Compared to Budget Request

                60
                                                               $55
                50
                                          $48
                40

  FTE Staff /
  $ Millions
                                                                                Authorized Full-time Equivalent (FTE)
                         $34                                                    Positions
                30
                                                                                Budget Request (in millions $)

                20
                                                               18
                        16                15
                10


                0
                     FY 2009          FY 2010              FY 2011
                                    Fiscal Year


Figure 1: Comparison of Authorized Staffing and Budget Requests.

As of October 2010, USAID/Yemen had plans to spend $237 million for 15
projects. Appendix III shows the USAID/Yemen project matrix, including all
implementing partners as of October 2010.

To accomplish its goals, the Government of The United States of America
(USG), acting through USAID, and the Government of the Republic of Yemen,
acting through the Ministry of Planning and International Cooperation,
established an assistance agreement, USAID Grant Agreement No. 279-AA-00-
09-00001, valued at $121,956,025, on September 16, 2009. In this assistance
agreement, USAID/Yemen developed programs to address foreign assistance
objectives of governing justly and democratically, health, education, and
economic growth. Additionally, the agreement focuses on activities in programs
for good governance, political competition and consensus building, civil society,
maternal and child health, family planning and reproductive health, basic
education, agriculture, and economic opportunity.

To help achieve the objectives of the assistance agreement, USAID/Yemen
estimated that the USG would contribute $121,956,025 to the Government of
the Republic of Yemen through September 30, 2012. USAID/Yemen officials
established the original FY 2009 budget not to exceed $30,156,025. However,
on August 25, 2010, the mission amended the agreement to increase total
funding up to $78,153,322 and extend the completion date to September 30,
2015, to fund additional projects.

USAID/Yemen operates three offices—the Office of the Director, the Program
Office, and the Technical Office—that employ four U.S. direct hires (USDH), 13
foreign service nationals (FSN), and one eligible family member (EFM) who
work in the Office of the Director, the Program Office, and on four technical
teams. The organization chart in Appendix V shows the reporting relationship at
the mission as of February 2011. In addition, the mission augments its staff with
experienced staff from USAID/Washington and other missions. The staff
normally works physically at USAID/Yemen during tours of 3 to 4 weeks at a
time. The new mission director plans to request additional USDH staff to help
increase FSN staff supervision and project oversight.



                                                  3
                  The Office of the Director is responsible for the overall direction and
                  management of mission activities. The Program Office is responsible for the
                  country strategy and country program budget. Although the Technical Office is
                  one office, the director is responsible for four technical teams that monitor the
                  implementation of mission programs and strategy within (1) democracy and
                  governance, (2) economic growth and agriculture, (3) health, and (4) education.

                  Regional staff offices, located at USAID/Egypt in Cairo, are responsible for the
                  oversight of the financial and administrative management functions for
                  USAID/Yemen to provide procurement, legal, financial, and other support
                  services. Moreover, USAID/Yemen requests the regional offices to augment the
                  staffing needs at the mission with quarterly temporary duty assignments that last
                  about 1 week.

Risk Assessment
and Control       The Regional Inspector General/Cairo (RIG/Cairo) designed the risk assessment
Activities in a   to determine the risk factors that may negatively affect USAID/Yemen’s operations
Control           and program activities. This assessment may allow the mission to take
Environment       appropriate steps to address any identified vulnerabilities that would hinder its
                  achieving program and project goals.

                  According to the Government Accountability Office (GAO) Standards for Internal
                  Control in the Federal Government, 3 internal controls should provide reasonable
                  assurance of compliance with applicable laws and regulations, that operations are
                  effective and efficient, and that financial reporting is reliable. The following five
                  standards define the minimum level of quality acceptable for internal control in
                  government and provide the basis against which internal control is to be evaluated.

                          1. Control Environment: Management and employees should establish and
                             maintain a control environment throughout the agency that sets a positive
                             and supportive attitude toward internal control and conscientious
                             management.

                          2. Risk Assessment: Internal control should provide for a risk assessment of
                             the risks the agency faces from both external and internal sources.

                          3. Control Activities: Internal control activities should be effective and
                             efficient in accomplishing the agency’s control objectives and help ensure
                             that management’s directives are carried out.

                          4. Information and Communications: Information should be recorded and
                             communicated to management and others in the agency who need it, in a
                             form, and within a timeframe, that enables them to carry out their internal
                             control and other responsibilities.

                          5. Monitoring: Internal control monitoring should assess the quality of
                             performance over time and ensure that the findings of audits and other
                             reviews are promptly resolved.

                  This review focused on the second standard—risk assessment.                    The GAO

                  3
                      Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (11/99).
                                                             4
             standards note that management needs to comprehensively identify risks and
             should consider all significant interactions between the entity and other parties as
             well as internal factors at both the entitywide and activity levels. Furthermore, risk
             identification methods may include qualitative and quantitative ranking activities,
             and consideration of findings from audits and other assessments.

             The GAO standards also note that the specific risk analysis methodology used can
             vary because of differences in agencies’ missions and the difficulty in qualitatively
             and quantitatively assigning risk levels. This review assigned a risk exposure of
             high, moderate, or low for each major office. A higher risk exposure simply
             indicates that the particular office is more vulnerable to USAID/Yemen’s program
             objectives not being achieved or to irregularities occurring. Appendix I describes in
             detail the risk assessment scope and methodology. Management comments are
             included in their entirety in Appendix II, and our evaluation of management’s
             comments is included in the report on page 13.

Discussion
             RIG/Cairo examined the risk associated with the operations to USAID/Yemen’s
             programs by office. The audit team assigned exposure risk levels ranging from
             low to high for two USAID/Yemen offices and three USAID/Egypt offices that
             provide support to the mission.

             Overall, USAID/Yemen’s risk exposure is high based on security issues, staff
             inability to monitor programs, high staff turnover, and staff inexperience with
             USAID programs and operations. Since USAID/Yemen relies on USAID/Egypt to
             provide some services regionally, staff are not available to monitor day-to-day
             financial, procurement, and legal activities. Consequently, the lack of ongoing
             oversight at USAID/Yemen and USAID/Egypt increases USAID/Yemen’s risks for
             decreased compliance with applicable laws and regulations, ineffective and
             inefficient operations, and unreliable financial reporting.

             A discussion of the assessment of risk exposures for two USAID/Yemen offices
             responsible for program implementation and three USAID/Egypt regional offices
             that provide administrative services for USAID/Yemen follows.


                         Office Description                       Risk Exposure
                         Technical Office                              High
                                          Risk Assessment Factors

              USAID/Yemen has four technical teams: (1) Democracy and Governance,
              (2) Economic Growth and Agriculture, (3) Health, and (4) Education. Eight staff
              on the technical teams report to the Director of the Technical Office and work
              closely with the Program Office to design, implement, monitor, and evaluate the
              mission’s programs and contribute to the country strategy and the country
              program budget. The teams also provide continuing analysis of their technical
              sectors and maintain close relationships with their counterparts in the relevant
              Yemeni ministries and agencies. As of December 2010, two USDHs and six
              FSNs have been employed within the office.

              Mission officials and some implementing partners identified three vulnerabilities
              that could hinder USAID/Yemen’s achievement of program and project goals:

                                                     5
    • Lack of continuity with local mission staff – Mission officials stated that FSN
      employee turnover at the mission over the past 2 years has been 25 percent
      (4 of 16 authorized staff) and 20 percent (3 of 15 authorized staff) for
      FY 2009 and FY 2010, respectively. According to USAID/Yemen officials,
      the high turnover is attributable to (1) an inadequate compensation and
      incentive system compared with the local Yemeni market, (2) general staff
      security concerns, and (3) the current mission management strategy
      enforcing discipline for employees to adhere to their job descriptions.

    • Travel restrictions – Owing to instability within the country, the Yemeni
      government placed travel restrictions to governorates in which
      USAID/Yemen’s implementers are conducting USAID projects (see
      Appendix IV). These travel restrictions limit project monitoring and oversight
      that the implementers and the mission staff can conduct outside of Sana’a,
      the capital of Yemen. Moreover, one mission official noted that projects
      implemented under the new USAID/Yemen strategy are falling behind
      implementation targets partly because of the security conditions. Although
      the mission hired an implementer to conduct monitoring, the implementer
      has not been able to travel to the USAID projects across the country.
      Consequently, the mission cannot ensure that implementers use USAID
      funds efficiently and effectively to achieve project objectives in a timely
      manner.

    • Staffing level and experience – With the exception of two staff,
      USAID/Yemen’s FSN staff have been employed less than 2 years and have
      little USAID project experience. The director noted that because of the
      staffing constraints, the mission’s new staff have responsibilities beyond the
      scope of their authority that may affect project activity timeliness. For
      example, an implementer noted that mission staff provided incorrect and
      unclear guidance on a mission project. Consequently, the implementer
      contacted mission management for guidance. USAID/Yemen’s mission
      director 4 noted that the mission was not staffed adequately, and the
      Technical Office Director noted that this affected the office’s ability to
      conduct its responsibilities. For example, competing priorities and dual roles
      for one USDH as office director and agreement officer’s technical
      representative (AOTR) do not allow the staff person to effectively monitor
      and provide oversight to assigned projects by reviewing project reports,
      training staff, and providing program guidance to implementers. Moreover,
      an implementer noted the mission did not perform certain inherently
      governmental functions, 5 such as preparing an environmental assessment
      before the obligation of funds for construction activities for an education
      project.




4
  During March 2011, a new mission director assumed responsibilities at USAID/Yemen.
5
  Inherently governmental functions are functions that should be performed by U. S.
Government employees. These functions include activities that require either the
exercise of discretion in applying Government authority, or the making of value
judgments in making decisions for the Government.
                                         6
           Office Description                       Risk Exposure
            Program Office                               High
                            Risk Assessment Factors

The program office is responsible for mission-wide activities, including the
development of the mission’s strategic plans, budgets, performance
management plans, and performance evaluations. As of December 2010,
USAID/Yemen staffed the office with one USDH, one EFM, and six FSNs.
Mission officials and some implementers identified three vulnerabilities that
could hinder the mission’s achievement of program and project goals:

• Weak management controls – Mission officials stated that the mission
  historically had few controls in place to ensure proper project management.
  For example, although the mission has drafted 10 mission orders, only 1 of
  these orders has been finalized and implemented. The office director
  expressed concern that no mission orders existed to clearly document
  delegations of authority and key areas of authority and responsibility in a
  small office structure, as required by agency guidance. Moreover, the office
  director stated that the mission has not routinely maintained project files. In
  addition, assessments of prior projects have been either nonexistent or
  limited. As a result, historical information is not readily available for mission
  staff review.

• Incomplete mission orders – Although USAID/Yemen developed mission
  orders in 2009, staff has finalized only one of these orders. USAID/Yemen
  officials noted that these mission orders are needed to define specific
  mission organizational working relationship and staff functions, delegations
  of authority, record retention, and employee conduct and integrity.

• Staffing level and experience – According to the office director,
  USAID/Yemen’s current program office staff lack experience and an
  understanding of USAID systems and procedures and require significant
  supervision. However, the limited USDH staff with multiple roles have
  insufficient time to provide increased management oversight and training.
  For example, the office director also serves as a contracting officer’s
  technical representative (COTR), acting deputy mission director, and
  provides financial management and executive office support.

          Office Description                       Risk Exposure
     Financial Management Office                     Moderate
                           Risk Assessment Factors

As a regional service provider, USAID/Egypt provides financial management
support services to USAID/Yemen through a Memorandum of Understanding
signed in 2007.      Through this memorandum, USAID/Egypt’s Financial
Management Office (FMO) provides financial analysis and reporting, accounts
payable and receivable, and obligation and disbursement services, which
totaled approximately $120 million and $35 million, respectively, for FY 2010.
The mission and implementers identified the following two vulnerabilities that
could hinder achievement of program and project goals:

                                     7
• Segregation of duties – Proper segregation of duties separates the
  responsibilities of recording, execution, and authorizing transactions to
  ensure the accuracy and timeliness of financial information and to prevent or
  minimize loss to fraud, waste, and abuse. According to USAID/Yemen
  officials, mission staffing levels prevent appropriate segregation of duties,
  increasing the mission’s risk exposure. One example of inappropriate
  segregation of duties exists as one USAID/Yemen staff member is
  responsible for both authorizing and approving funding.

• Staff inexperience – According to USAID/Egypt FMO staff, inexperienced
  USAID/Yemen staff have had difficulties providing and submitting supporting
  financial documentation needed for voucher payment.                 Although
  USAID/Yemen relies primarily on USAID/Egypt’s FMO, two USAID/Yemen
  staff currently provide budget and finance support. These two staff members
  have approximately 3 years’ experience combined working with USAID’s
  financial management process. According to USAID/Egypt FMO staff,
  USAID/Yemen and USAID/Egypt FMO staff complete some financial
  management processes that are typically the responsibility of USAID/Yemen
  COTRs. USAID/Yemen COTR/AOTRs rely on FMO staff to complete project
  accruals, which is not an FMO responsibility. Because FMO staff are not as
  familiar with USAID/Yemen’s projects as COTR/AOTRs, the risk of
  inaccurate financial reporting increases.

Several factors mitigate the risk posed by the issues identified:

• USAID/Egypt administrative procedures – Past reviews and audit results of
  USAID/Egypt’s administrative controls and staff qualifications have
  determined that risks associated with FMO procedures is low.

• USAID/Egypt staff experience – The USAID/Egypt FMO staff members
  providing support to USAID/Yemen have significant USAID experience and
  have worked with FMO for more than 8 years.

• Ongoing communication – Although USAID/Egypt FMO staff are not co-
  located with USAID/Yemen, day-to-day oversight on financial issues has
  been facilitated by regular communication between the two missions’ staffs.
  This includes weekly teleconferences and USAID/Egypt FMO’s staff travel to
  Yemen, according to USAID/Egypt officials.

• USAID/Egypt training – USAID/Egypt has conducted training sessions on
  funds control and accruals for USAID/Yemen staff.

The risks of inexperience within USAID/Yemen staff and lack of segregation of
duties are mitigated by USAID/Egypt’s FMO administrative procedures, staff
experience, ongoing communication, and training. As a result, a risk level of
moderate is assigned to USAID/Yemen for financial management support.




                                      8
          Office Description                       Risk Exposure
         Office of Procurement                       Moderate
                           Risk Assessment Factors

USAID/Yemen relies on USAID/Egypt’s Office of Procurement for its
procurement functions for obligations of approximately $61 million on average
during FYs 2009 and 2010. USAID/Egypt’s contracting officer is responsible for
entering into, administering, and terminating USAID direct contracts on behalf of
USAID/Yemen.        Moreover, these officers take action on behalf of
USAID/Yemen to enter into, change, or terminate a grant or assistance award.
Currently, two USAID/Egypt staff members, a contracting officer and a
supervisory acquisition specialist, provide primary procurement support to
USAID/Yemen. The mission and implementers identified three vulnerabilities
that could hinder achievement of program and project goals:

• Changes in USAID/Egypt Office of Procurement staff – USAID/Egypt’s Office
  of Procurement staff supporting USAID/Yemen both assumed responsibility
  for the USAID/Yemen portfolio in October 2010. Although USAID/Yemen
  has been able to provide contract documents, mission officials expressed
  concern that official project files at USAID/Yemen have not been maintained
  sufficiently. The condition exposes the mission to elevated legal and
  procurement risks that could result in unauthorized commitments.

• Closeouts of completed projects – USAID/Egypt Procurement staff and
  USAID/Yemen officials both reported that completed USAID/Yemen projects
  have not been properly closed out. As of December 2010, USAID/Yemen
  had not closed out 24 completed projects, with unliquidated obligations
  valued at $3.6 million, including one project completed in September 2001.
  As a result, unliquidated funds cannot be used for other projects.

• Regional office support – Although USAID/Yemen is supported by
  experienced staff from multiple USAID/Egypt offices, USAID/Yemen’s
  Program Office director expressed concern that USAID/Egypt’s Procurement
  office was not providing assistance as often as USAID/Yemen desired. For
  example, USAID/Yemen requested USAID/Egypt procurement assistance on
  a quarterly basis. However, USAID/Egypt has provided assistance onsite in
  Yemen twice during the past 18 months.

Several factors mitigate the risk posed by the issues above:

• USAID/Egypt staff experience – Although the USAID/Egypt Office of
  Procurement staff members providing support to USAID/Yemen only recently
  assumed responsibility for the mission’s portfolio, one staff member has
  more than 20 years of USAID experience and the other has approximately 6
  years’ procurement experience with USAID and multiple years’ procurement
  experience prior to joining USAID.

• USAID/Egypt policies and procedures – Procurement staff reported that
  procedures specific to the office have been developed and communicated to
  the staff at USAID/Yemen and USAID/Egypt. However, staff could not
  provide a date of communication.


                                     9
              After a procurement official staff rotation in 2010, USAID/Egypt officials
              reassigned the USAID/Yemen program portfolio to another contracting officer.
              Accordingly, a risk level of moderate is assigned to the Office of Procurement’s
              support of USAID/Yemen.

                         Office Description                       Risk Exposure
               Office of the Regional Legal Advisor                    Low
                                          Risk Assessment Factors

              USAID/Egypt’s Office of the Regional Legal Advisor (RLA) provides legal
              services for USAID/Yemen that include counsel related to awards, activities,
              management actions, USAID policy, ethics training, and drafting and negotiating
              bilateral agreements and memorandums of understanding. The mission and
              implementing partners identified the following vulnerability that could hinder
              achievement of program and project goals:

              • Knowledge of USAID/Yemen project activities – The RLA noted the need for
                more in-depth knowledge of USAID/Yemen project activities and mission
                issues as a key challenge. To address this challenge, the office conducts
                site visits to USAID/Yemen to gain knowledge of USAID/Yemen’s project
                activities and issues.

              The following factors noted by the RLA mitigate the risks identified above:

              • Legal staff experience – The RLA staff member providing support to
                USAID/Yemen has more than 9 years’ experience with USAID.

              • Ongoing communication – Although not co-located with USAID/Yemen staff,
                the RLA provides support through telephone and email communication as
                well as through periodic site visits to USAID/Yemen.

              The risks of limited in-depth knowledge of USAID/Yemen project activities and
              the use of a regional services provider are mitigated by the significant
              experience of the RLA and the regular communication between USAID/Yemen
              and the RLA. Consequently, a risk level of low is assigned to the Office of the
              Regional Legal Advisor’s support of USAID/Yemen.

Conclusion
             The table below summarizes the risks associated with the major activities and
             processes to USAID/Yemen’s programs by office.

                                                                 Risk Exposure
             USAID/Yemen Offices                       High        Moderate           Low
             Program Office                             X
             Technical Office                           X
             Financial Management Office                                X
             Office of Procurement                                      X
             Office of the Regional Legal
                                                                                       X
             Advisor


                                                  10
USAID/Yemen        USAID’s Automated Directives System (ADS) 203.3.5.3(b), Quality
Performed          assessments of data from implementing partners and secondary data sources,
Little Oversight   states that assistance objective teams should consider visiting a broad range of
(see page 6)       sites; the point is to assess whether reports accurately reflect what occurs in the
                   field. Moreover, USAID/Yemen’s monitoring and evaluation project notes that
                   the implementer will also undertake activity-level verification of results and
                   environmental compliance in the field to ensure that all USAID implementing
                   partners’ data are effective, complete, accurate, and consistent with
                   agreements and with USAID’s environmental regulations.

                   The mission and implementing partners have not conducted site visits to
                   governorates that use USAID funding valued at $237 million. Implementers
                   stated that expatriate staff have had limited travel throughout the governorates
                   of Yemen owing to security restrictions and the difficulty in obtaining approval
                   from the Yemeni government. One implementer noted that ideally, expatriate
                   staff would routinely monitor actual projects.

                   Because of instability within the country, the Yemeni government placed
                   restrictions on governorates in which USAID/Yemen’s implementers can travel.
                   Moreover, the U.S. Embassy Regional Security Officer’s guidelines advise
                   expatriate staff to avoid travel to certain governorates considered high risk.
                   Although FSN staff do not require clearances from the Yemeni government,
                   they may face challenges because of tribal affiliations. Consequently, it may
                   be difficult for local staff to travel to certain areas because rival tribes may
                   operate insurgent checkpoints throughout an area.

                   These travel restrictions have severely limited the amount of project activity
                   monitoring and oversight provided by the implementers and the mission. The
                   mission cannot ensure that implementers effectively use USAID funds to
                   achieve project objectives without proper monitoring and oversight of project
                   activities.

                   The perception of detection is a great attribute to ensure that USAID/Yemen
                   programs are implemented in a highly effective, efficient, and timely manner.
                   Since travel restrictions in Yemen have severely limited the monitoring and
                   oversight of mission programs, USAID/Yemen cannot be assured that USAID
                   funds expended will achieve desired program objectives.

                   To address this vulnerability, this review makes the following recommendation:

                     Recommendation 1. We recommend that USAID/Yemen consult with
                     the Regional Financial Management Office and the Regional Legal
                     Advisor to develop and implement a plan to review and audit program
                     awards to determine whether USAID funds are being used as intended
                     to comply with applicable laws and regulations.




                                                        11
USAID/Yemen      USAID has much guidance regarding the management controls of
Did Not          documentation and the control environment, which includes staffing issues. In
Document         addition, GAO’s Standards for Internal Control in the Federal Government
Critical         identifies the control environment as critical to establishing good human capital
Processes or     policies and practices. According to USAID’s Guidance on Preparing Mission
Provide          Orders, mission orders are required when additional mission-specific procedures
Recurring        are necessary to implement the Agency’s ADS. Furthermore, the GAO
Staff Training   standards states that management needs to identify appropriate knowledge and
(see page 8)     skills needed for various jobs and provide needed training. As good human
                 capital policies, managers should establish appropriate practices for hiring,
                 orienting, training, evaluating, counseling, promoting, compensating, and
                 disciplining personnel. They should also provide a proper amount of supervision.

                 With one exception, USAID/Yemen does not have any mission orders that
                 would provide mission-specific guidance on critical operations and procedures.
                 Currently the mission is operating with one documented mission order that
                 provides guidance on antiterrorism procedures. This order was finalized in 2009
                 and now needs to be updated, according to USAID/Yemen staff. USAID/Yemen
                 drafted an additional nine mission orders in 2009. However, 2 years later,
                 USAID/Yemen has not finalized these documents, which would provide staff
                 with information on program and performance requirements related to mission
                 organization and functions, delegations of authority, records retention, and
                 employee conduct and integrity issues. According to the program officer, this
                 occurred because the draft orders developed in 2009 need to be modified to
                 reflect the mission’s current staffing and procedures before being submitted for
                 legal review.

                 Mission officials agreed that mission orders are an important management tool
                 to provide guidance to inexperienced staff, but have not reviewed, revised, or
                 finalized the mission orders. A USAID/Yemen official reported that finalizing the
                 mission orders would be a priority for the current USAID/Yemen USDH staff.
                 After mission officials agree on the number and types of mission orders needed,
                 USAID/Yemen may be better able to mitigate some of its risk exposure caused
                 by staff inexperience and the lack of training.

                 Effective management controls include documentation of specific mission orders
                 on mission organization and functions, delegations of authority, records
                 retention, training, and employee responsibilities related to conduct. Moreover,
                 effective management controls can help organizations manage shifting
                 environments and evolving demands and priorities. Such management controls
                 have a positive effect to mitigate risks when a mission has limited monitoring
                 capacity, limited staff experience, and inadequate segregation of duties. To
                 address this vulnerability, this review makes the following recommendations:

                    Recommendation 2. We recommend that USAID/Yemen work with the
                    Regional Executive Office and the Regional Legal Advisor to develop a
                    milestone chart of critical mission orders to be finalized to ensure
                    continuity of operations and to address specific mission vulnerabilities.




                                                      12
                    Recommendation 3.      We recommend that USAID/Yemen identify
                    training needs and develop and implement annual training plans for
                    mission staff.

Evaluation of   USAID/Yemen mission officials agreed with all three recommendations. On the
Management      basis of USAID/Yemen’s supporting documentation and planned action,
Comments        RIG/Cairo considers that management decisions have been reached on all
                recommendations.

                Regarding recommendation 1, the mission agrees with the recommendation to
                work with the Regional Legal Advisor (RLA) to develop and implement a plan to
                review and audit program awards to determine whether USAID funds are being
                used as intended to comply with applicable laws and regulations. Mission
                officials intend to consult with the RLA to devise a prioritized list of awards to be
                audited by April 30, 2011. However, officials noted that they will not be able to
                set a definitive timeline for the audits, owing to the current security climate in
                Yemen. 6 In addition, the mission intends to seek support from RIG/Cairo to
                make determinations regarding additional local firms suitable to conduct needed
                audits. As a result, RIG/Cairo considers that a management decision has been
                reached on this recommendation.

                In response to recommendation 2, the mission agrees with the recommendation
                to work with the regional offices to develop a milestone chart of critical mission
                orders and notices. Mission officials noted that the recommended milestone
                chart of critical mission orders and notices will be completed by April 30, 2011,
                and will include target dates and responsible parties. Consequently, RIG/Cairo
                considers that a management decision has been reached on this
                recommendation.

                Regarding recommendation 3, the mission agrees with the recommendation to
                identify training needs and develop and implement annual training plans for
                mission staff. Mission officials noted intentions to review and finalize individual
                training plans for its staff, allocate training resources under its operational
                expense and program budgets, and submit an annual training plan by August
                31, 2011. As a result, RIG/Cairo considers that a management decision has
                been reached on this recommendation.




                6
                  On March 24, 2011, the U.S. Department of State website noted that the political
                situation in Yemen remains uncertain and public demonstrations, which in the past have
                led to violence, confrontation, and casualties, have grown particularly dangerous. The
                website continues to state that the U.S. Embassy recommends that U.S. citizens in
                Sana’a carefully limit their movements, and the U.S. Department of State continues to
                recommend that U.S. citizens in Yemen consider departing the country.
                                                       13
                                                                                       Appendix I



Scope and     Scope
Methodology   The Regional Inspector General/Cairo (RIG/Cairo) conducted this risk assessment
              of selected offices that provide services to USAID/Yemen. This risk assessment
              was not an audit. The risk assessment covered operations principally for fiscal year
              (FY) 2010 and was conducted at USAID/Egypt in Cairo and USAID/OIG in
              Washington, DC, from December 8, 2010, through March 1, 2011.

              The risk assessments of the selected USAID/Yemen and USAID/Egypt offices have
              the following limitations in their application:

               •   First, we assessed risk at the office level.
               •   Second, we assessed risk only. Our risk assessments were not sufficient to
                   make definitive determinations of the effectiveness of internal controls for
                   major functions. Consequently, we did not generally (a) assess the adequacy
                   of internal control design, (b) determine whether controls were properly
                   implemented, or (c) determine whether transactions were properly
                   documented.
               •   Third, higher risk exposure assessments are not definitive indicators that
                   program objectives are not being achieved or that irregularities are occurring.
                   A higher risk exposure simply indicates that the particular office is more
                   vulnerable to undesirable negative events.
               •   Fourth, risk exposure assessments, in isolation, are not an indicator of
                   management capability because risk assessments consider both internal and
                   external factors, some of which are beyond management’s control.
               •   Fifth, comparison of risk exposure assessments between organizational units
                   is of limited usefulness because risk assessments consider both internal and
                   external factors, some of which may be beyond management’s control.

              Methodology
              To perform this risk assessment, we interviewed USAID/Yemen and USAID/Egypt
              officials and reviewed documentation on the role of each responsible office related
              to services provided to USAID/Yemen. Our review of documentation from
              selected USAID/Yemen and USAID/Egypt offices on their roles related to services
              provided to USAID/Yemen was limited, judgmental in nature, and conducted
              principally to confirm oral attestations of management.

              We identified the selected offices with roles related to USAID/Yemen mission
              functions based on the functional role of each office. We determined risk
              exposure for each of these offices regarding services provided to
              USAID/Yemen—for example, failure to achieve program objectives; failure to
              ensure program continuity or sufficient monitoring of program changes; and the
              likelihood of significant abuse, illegal acts, or misuse of resources. Moreover, we
              reviewed monitoring and financial documentations from USAID/Yemen projects
              and conducted interviews with four implementers: Academy for Educational
              Development, Creative Associates International, Inc., Counterpart International,
              and International Business & Technical Consultants, Inc.                These four
              implementers’ projects accounted for $198.4 million, or 84 percent, of USAID
              programming for Yemen, which was valued at $237 million as of October 2010.

              We assessed overall risk as high, moderate, or low. A higher risk exposure
              simply indicates that the particular office is more vulnerable to its program
                                                     14
                                                                       Appendix I


objectives not being achieved or that irregularities were occurring. We considered
the following key factors in assessing risk:

   •   Significance and sensitivity
   •   Competence and adequacy of number of personnel
   •   Susceptibility to failure to achieve program goals, noncompliance with laws
       and regulations, inaccurate reporting, or illegal or inappropriate use of
       assets or resources
   •   Relevant internal controls, including control activities such as
       documentation of performance monitoring, communication of information
       both internally and externally, and management of human resource
       capacity
   •   Warning signs such as a history of improper administration or material
       weaknesses identified in prior audits or internal control assessments,
       poorly defined and documented internal control procedures, or a high rate
       of personnel turnover

These risk assessments were not sufficient to make definitive determinations of
the effectiveness of internal controls for major functions. As part of the review
methodology, we identified, understood, and documented (as necessary) relevant
internal controls and determined what was already known about the effectiveness
of internal controls. However, we did not generally assess the adequacy of
internal control design, determine whether controls were properly implemented, or
determine whether transactions were properly documented.




                                     15
                                                                                       Appendix II


Management
Comments




      MEMORANDUM

      UNCLASSIFIED

      To:            Jacqueline Bell, Regional Inspector General

      From:          Robert Wilson, Mission Director /s/

      Date:          March 29, 2011

      Subject:       Management Comments on Risk Assessment of USAID/Yemen Major
                     Activities (Report No. 6-279-11-00X-S)


      Thank you for providing the final draft report of the Regional Inspector General’s Risk
      Assessment of USAID/Yemen Major Activities (Report No. 6-279-11-00X-S), dated
      March 24, 2011. I understand that USAID/Yemen’s Program and Technical Office staff
      participated in extensive and very useful conversations with your staff leading up to the
      final draft report.

      This letter is to convey the Mission management comments in response to the
      recommendations contained in that report. The Mission agrees with the three
      recommendations and is already taking actions to address and fully comply with them.

      Regarding the first recommendation, that USAID/Yemen consult with the Regional Legal
      Advisor to develop a plan to review and audit program awards to determine whether
      USAID funds are being used as intended to comply with applicable laws and regulations,
      we will begin immediately, in consultation with the Regional Legal Advisor, to devise a
      prioritized list of awards to be audited. This prioritized list will be completed by the end
      of April 2011. However, we will not be able to set a definitive timeline for the audits, due
      to current events unfolding in Yemen. We will provide a tentative time line. And, once
      implementing partner staff have fully returned to Yemen and we have determined that it
      is safe to proceed with normal program operations, we will be better positioned to
      propose a credible timeline for the audit plan. In the meantime, our Monitoring and
      Evaluation project will be deployed to intensify field oversight, and validate the activities
      and reporting data of all implementing partners. We will also seek support from your
      office to make determinations regarding additional local firms suitable to conduct needed
      audits.


                                                 16
With regard to the second recommendation, that USAID/Yemen consult with the
Regional Legal Advisor and Executive Office to develop a milestone chart of critical
mission orders to be finalized to ensure continuity of operations and to address specific
mission vulnerabilities, consultations between Cairo and the Mission have already
begun. The recommended milestone chart of critical mission orders and notices will be
completed by April 30, 2011, and will include target dates and responsible parties.
Beyond that, as we work with Cairo support offices to complete needed Mission Orders
and Notices, we also will seek their support to help train our staff in critical mission
operational procedures, which will help ensure procedural compliance.

With regard to the third recommendation, that USAID/Yemen identify training needs and
develop and implement annual training plans for mission staff, the Mission will be:
collating, reviewing and finalizing the individual training plans for its staff, allocating
training resources under its Operational Expense and Program budgets, and will be in a
position to submit an annual training plan by August 31, 2011. The reason for the
relatively longer timeline on this recommendation is as follows: As of the date of this
memo, USAID/Yemen is on authorized departure. Currently, only two of its four USDH
are in country; the third will depart in early May, leaving only the Mission Director in
place. It is hoped that the authorized departure status will soon be lifted allowing the
return of USDH staff or replacements. But, in the best case scenario, USAID/Yemen will
not be at full USDH strength until July. Returnee and new staff will require time to
consult with their supervised employees on training plans, and these will have to be
reviewed by a training committee, comprised at post. The functions of this committee
need to be established in a Mission Notice, as per recommendation 2.

In addition to the above management comments, we would like to mention that insofar
as many of the concerns identified in the report relate to our staffing constraints, the
Mission is undertaking a number of steps to increase staffing, as much as budget
resources and space constraints in Sana’a will permit.

Finally, I would like to request that this Memorandum be attached to the Risk
Assessment of USAID/Yemen Major Activities when it is finalized and issued.

Thank you very much for your efforts in helping us identify and mitigate risks to our
program.




                                          17
                                                                                                            Appendix III


                                      USAID/Yemen Project Matrix
                                                As of October 2010

                                                                     Implementing             Ceiling
    Program Title               Target Governorates                     Partner               Value          Start         End
Basic Health Services         Amran                                Pathfinder
                                                                                              $21,610,315   12/1/2006   12/13/2010
(BHS)                                                              International
                              Central-government focused
Anticorruption Support        (Sana’a)                             MOPIC                       $2,277,372   9/13/2006    5/31/2011

                              Hodeidah, Shabwah, Marib,            Academy for
Basic Education Support
                              Raymah, and Amran                    Educational                $17,392,557   9/30/2007   12/31/2011
and Training (BEST)
                                                                   Development (AED)
Ministry of Agriculture       Sa’adah, Amran, Al-Jawf, Marib,
Extension Services            Shabwah                              Ministry of Agriculture      $648,800    10/1/2007    9/30/2010
Support
Small and Medium-Sized        Aden, Lahj, Al-Dhale’e, Abyan,       Small Micro
Enterprise Promotion          Shabwah                              Enterprise Promotion        $2,048,400   9/17/2009    9/16/2011
(Tomoohi) *                                                        Service (SMEPS)
Al-Saleh Institute            Marib
Support Project for Youth                                          EDC                         $1,650,000   11/9/2009      5/8/2011
(AISPY) *
Promoting Civic Youth         Aden, Lahj, Al-Dhale’e
Engagement and                                                     AMIDEAST                    $3,550,000   9/30/2009    9/30/2012
Nontraditional Activities *
Demographic Health            Central-government focused
                              (Sana’a)                             Macro International          $400,000     2/1/2010   12/31/2010
Survey (DHS)
                              Amran, Al-Jawf, Marib,
Community Livelihoods         Shabwah, Al-Dhale’e, Lahj,
                                                                   Creative Associates       $125,000,000   5/20/2010    5/20/2013
Project (CLP)                 Abyan, Aden (and some carry-
                              over activities in Sa’adah)
                              Central-government focused
                              (Sanaa), plus very small civil
Responsive Governance         society development grants in        Counterpart
                                                                                              $43,000,000    5/6/2010      5/6/2013
Project (RGP)                 Amran, Al-Jawf, Marib,               International
                              Shabwah, Al-Dhale’e, Lahj,
                              Abyan, Aden
                              Hajjah, Amran, Marib, Al-Jawf,
                                                                                                                        To be
Transition Initiatives **     Shabwah, Lahj, Al-Dhale’e,           IOM                         $3,999,999   3/31/2010
                                                                                                                        determined
                              Sana’a
Strengthening the Role of     Marib, Shabwah
Youth in Cross-Tribal
Conflict Mitigation
                                                                   NDI                          $600,000     5/1/2010   10/31/2011
Processes and
Community Development
(DCHA/CMM) **
Yemen Community-              Marib, Al-Jawf, Shabwah, Al-
                              Baidah                               Partners for
Based Conflict Mitigation                                                                       $590,897     4/1/2010    3/31/2012
                                                                   Democratic Change
Project (DCHA/CMM) **
Strengthening the Role of     Aden, Lahj
Youth in Cross-Tribal
Conflict Mitigation
                                                                   Mercy Corps                 $1,200,000   9/30/2010    9/30/2012
Processes and
Community Development
(DCHA/CMM) **
                              All governorates in which the        International Business
Yemen Monitoring &
                              rest of USAID is working             and Technical              $13,000,000   4/27/2010    4/26/2013
Evaluation (YM&E)
                                                                   Consultants, Inc.

                                                                                     Total   $236,968,340


* Denotes that the project was fully funded by FY 2007 1207 funds.
** Denotes that funds are Washington-based and do not impact the USAID/Yemen budget.



                                                              18
                                                                         Appendix IV


             Map of the Republic of Yemen Governorates




As of February 2011, travel to all Yemeni governorates outside of Sana’a (the capital
city) was restricted. However, USAID/Yemen implements projects in the following
governorates:

                               No. of                                   No. of
          Governorate         projects               Governorate       projects
     Abyan                       4            Hodeidah (Al Hudayday)      2
     Aden                        6            Lahj (Lahij)                7
     Al-Baidah(Al Bayda)         2            Marib (Ma’rib)              9
     Al-Dhale’e (Ad Dali)        6            Raymah                      2
     Al-Jawf                     6            Sa’adah (Sa’dah)            3
     Amran                       7            Sana’a                      5
     Hajjah                      2            Shabwah                     9




                                         19
                                                                                  Appendix V



                             USAID/Yemen Organizational Chart
                                     As of February 2011




                                        Mission Director



Director, Technical Office          Director, Program Office          Secretary


Deputy Director, Technical             Sr. Program Specialist

   Sr. Advisor, Education
                                        Program Specialist

  Sr. Advisor, Governance               Financial Manager                U.S. Direct Hire

      Local Gov / Civil Society                                  U.S. Personal Services Contractor
             Specialist                  Accounting Specialist
                                                                     Foreign Service National
  Sr. Advisor, Econ Growth              Budget Analyst and
                                      Administrative Assistant       Eligible Family Member
        Agriculture / Rural
      Development Specialist
                                         Program Support
   Sr. Livelihoods Advisor                  Specialist


          Health Specialist
                                             Driver




                                               20
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
             Tel: 202-712-1150
             Fax: 202-216-3047
            www.usaid.gov/oig




                  21
